No. 19-123
IN THE SUPREME COURT OF THE UNITED STATES

SHARONELL FULTON, ET AL., PETITIONERS
V.

CITY OF PHILADELPHIA, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE SUPPORTING
PETITIONERS, via e-mail and first-class mail, postage prepaid, this 3rd day of June 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8935 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
June 3. 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington. D.C. 20530-0001
(202) 514-2217
June 3, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0123
FULTON, SHARONELL, ET AL.
CITY OF PHILADELPHIA, PENNSYLVANTA, ET AL.

TIMOTHY BEIZ
OTTSEN, LEGGAT & BELZ, L.C.
112 SOUTH HANLEY
SUTTE 200
ST LOUIS, MO 63105
314-7262800
TBELZ@OLBLAW.COM
BRUCE N. CAMERON
C/O NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD , VA 22160
703-321-8510
BNC @NRTW. ORG
JAMES A. CAMPBELL
NEBRASKA ATTORNEY GENERAL'S OFFICE
2115 STATE CAPITOL
LINCOLN, NE 68509
402-471-2682
JIM.COMPBELL@NE3BRASKA.GOV
ANTHONY T. CASO
CHAPMAN UNIVERSITY
FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
714-628-2650
CASO@CHAPMAN.EDU

NICHOLAS M CENTRELLA
CONRAD O'BRIEN PC
1500 MARKET STREET
SUITE 3900
PHILADELPHIA, PA 19102
215-864-8098
MILES E. COLEMAN
NELSON MULLINS RILEY &
SCARBOROUGH, LLP
1320 MAIN STREET
COLUMBIA, SC 29201
803-799-2000
MILES.COLEMAN@NELSONMULLINS.COM
LESLIE COOPER
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
212-549-2500
LCOOPER@ACLU.ORG
DEBORAH J. DEWART
620 E. SABISTON DRIVE
SWANSBORO , NC 285 84-9674
910-326-4554
DEBCPALAW@EARTHLINK.NET
JOHN A. EIDSMOE
FOUNDATION FOR MORAL LAW
ONE DEXTER AVENUE
MONTGOMERY, AL 36104
334-262-1245
EIDSMOEJA@JUNO.COM

DEEPAK GUPTA
GUPTA WESSLER PLLC
1900 L STREET, NW
SUITE 312
WASHINGTON, DC 20036
202-888-1741
DEEPAK@GUPTAWESSIER.COM
KYLE D. HAWKINS
SOLICITOR GENERAL
P.O. BOX 12548 (MC 059)
AUSTiN, TX 78711-2548
512-936-1700
KYLE.HAWKINS@OAG.TEXAS.GOV
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-63 7-5 600
NEAL.KATYAL @HOGANLOVELL S. COM
CHRISTOPHER C. LUND
WAYNE STATE UNIVERSITY
SCHOOL OF LAW
471 W. PALMER ST.
DETROIT , MI 48202
313-577-4046
LUND@WAYNE.EDU
MARK D. MARTIN
ROBERTSON CENTER FOR CONSTITUTIONAL
LAW
1000 REGENT UNIVERSITY DRIVE
VIRGINIA BEACH, VA 23464
757-352-4040
MMARTIN@REGENT.EDU

ANDREA MARIE PICCIOTTI-BAYER
CATHOLIC ASSOCIATION FOUNDATION
3220 N. STREET
SUITE 126
WASHINGTON , DC 20007
571-201-6564
AMARIEPICCIOTTI@GMAIL.COM
MARK L. RIENZI
THE BECKET FUND FOR THE RELIGIOUS
LIBERTY
1200 NEW HAMPSHIRE AVE., NW
SUITE 700
WASHINGTON, DC 20036
202-95 5-009 5
MRIENZI@BECKETLAW.ORG
HOWARD NATHAN SLUGH
2400 VIRGINIA AVENUE, NW
APT. C619
WASHINGTON, DC 20037
954-328-9461
HSLUGH@COOPERKIRK.COM
EUGENE VOLOKH
UCLA SCHOOL OF LAW
385 CHARLES E. YOUG DRIVE EAST
LOS ANGELES, CA 90095
310-206-3926
HSLUGH@JCRL.ORG
EDWARD MARK WENGER
119 SOUTH MONROE STREET
SUITE 300
TALLAHASSEE, FL 32301
850-425-2352
EDW@HGSLAW.COM

